DOE/IG-0519




       EVALUATION                   THE DEPARTMENT’S
                                   UNCLASSIFIED CYBER
         REPORT                    SECURITY PROGRAM




                                           AUGUST 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                      DEPARTMENT OF ENERGY
                        Washington, DC 20585

                              August 30, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Evaluation of the Department's Unclassified
                         Cyber Security Program


BACKGROUND

Protecting unclassified information systems continues to be one of the top issues facing
Government organizations today. While the increase in computer interconnectivity, most
notably growth in the use of the Internet, has revolutionized the way the Government
does business, it has also significantly increased the risk of damage to information
systems by malicious or unauthorized users.

The Department expends a significant portion of its budget to maintain a series of
interconnected unclassified networks and information systems. In Fiscal Year (FY)
2001, the Department estimated that it would expend about $1.4 billion for information
technology, including investments in scientific programs such as the Accelerated
Strategic Computing Initiative. Organizations throughout the Department have numerous
networks that are utilized to meet day-to-day mission requirements, including financial,
security, and research activities. Users are able to exchange data between virtually every
component and site within the Department through a proliferation of systems and
networks.

In response to the increasing threat to information systems and the highly networked
nature of the Federal computing environment, the Government Information Security
Reform Act (GISRA) was enacted in October 2000. GISRA focuses on program
management, implementation, and evaluation aspects of the security of unclassified and
national security information. It requires agencies to adopt a risk-based, life cycle
approach to improving computer security and also requires annual agency program
reviews and independent evaluations of unclassified computer security programs.

The objective of the evaluation was to determine whether the Department's unclassified
cyber security program protects data and information systems as required by GISRA.
                                            2



CONCLUSIONS AND OBSERVATIONS

While the Department has made improvements in its unclassified cyber security program,
the program did not adequately protect data and information systems as required by
GISRA. Specifically, we observed problems with security program planning and
management, to include problems with risk management, contingency planning,
computer incident reporting, and training management. Configuration management or
access control problems also existed at many of the 24 sites evaluated. Problems with
design and implementation of cyber security policy, including a lack of monitoring and
specific, focused performance measures, contributed to these weaknesses and adversely
impacted the effectiveness of the entity-wide program. Observed weaknesses increased
the risk that critical systems, a number of which enable delivery of essential services to
members of the public and other Federal agencies, could be compromised or disabled by
malicious or unauthorized users.

Due to security considerations, information on specific vulnerabilities and locations has
been omitted from this report. Line management officials at the sites evaluated have
been provided with detailed information regarding identified vulnerabilities, and in many
instances, have initiated corrective actions for critical problems.

MANAGEMENT REACTION

We made a number of recommendations designed to improve the effectiveness of the
Department's cyber security program. Management concurred in principle with our
finding and recommendations and indicated that it would develop a plan to correct
security weaknesses identified by the evaluation.

Attachment

   cc: Deputy Secretary
       Under Secretary for Energy, Science and Environment
       Administrator, National Nuclear Security Administration
       Acting Chief Information Officer
EVALUATION OF THE DEPARTMENT'S UNCLASSIFIED CYBER SECURITY
PROGRAM


TABLE OF
CONTENTS



                  Overview

                  Introduction and Objective ..........................................................1

                  Conclusions and Observations.................................................. 2


                  Unclassified Cyber Security Program Design and
                  Implementation Weaknesses

                  Details of Finding.......................................................................3

                  Recommendations and Comments .........................................11


                  Appendices

                  1. Scope and Methodology......................................................12


                  2. Related Office of Inspector General and
                      General Accounting Office Reports .....................................14


                  3. Office of Independent Oversight and
                      Performance Assurance Reports ........................................16
OVERVIEW

INTRODUCTION AND   Protecting unclassified information systems continues to be one of the
OBJECTIVE          top issues facing Government organizations today. While the increase
                   in computer interconnectivity, most notably growth in the use of the
                   Internet, has revolutionized the way the Government does business, it
                   has also significantly increased the risk of damage to information
                   systems by malicious or unauthorized users. There is a growing risk
                   that hostile entities could severely damage or disrupt national defense
                   or vital public operations through computer-based attacks on the
                   Department's critical systems.1 In recognition of these threats, the
                   Office of Inspector General recently reported that information
                   technology was one of the top management challenges facing the
                   Department of Energy (Department). The U.S. General Accounting
                   Office (GAO) also recently designated information system security as a
                   Government-wide high-risk area.

                   The Department expends a significant portion of its budget to maintain
                   a series of interconnected unclassified networks and information
                   systems. In Fiscal Year (FY) 2001, the Department estimated that it
                   would expend about $1.4 billion for information technology, including
                   investments in scientific programs such as the Accelerated Strategic
                   Computing Initiative. Organizations throughout the Department have
                   numerous networks that are utilized to meet day-to-day mission
                   requirements, including financial, security, and research activities.
                   Users are able to exchange data between virtually every component and
                   site within the Department through a proliferation of systems and
                   networks.

                   In response to the increasing threat to information systems and the
                   highly networked nature of the Federal computing environment, the
                   Government Information Security Reform Act (GISRA) was enacted
                   in October 2000. GISRA focuses on program management,
                   implementation, and evaluation aspects of the security of unclassified
                   and national security information.

                   Generally, GISRA codifies existing policies and regulations and
                   reiterates security responsibilities outlined in the Computer Security
                   Act of 1987 and the Clinger-Cohen Act of 1996. It requires agencies to
                   adopt a risk-based, life cycle approach to improving computer security

                   1
                    We considered a system to be mission critical if, in our opinion, it met the definition
                   found in Section 3532(b)(2)(C), GISRA, i.e., if it "processes any information, the loss,
                   misuse, disclosure, or unauthorized access to or modification of, would have a
                   debilitating impact on the mission of an agency."


Page 1                                                                 Introduction and Objective
                  and also requires annual agency program reviews and independent
                  evaluations of both unclassified and classified computer security
                  programs. GISRA tasks the Inspector General with performing an
                  annual evaluation of the agency's security programs and practices.


CONCLUSIONS AND   While the Department has made improvements in its unclassified cyber
OBSERVATIONS      security program, the program did not adequately protect data and
                  information systems as required by GISRA. Specifically, we observed
                  problems with security program planning and management, to include
                  problems with risk management, contingency planning, computer
                  incident reporting, and training management. Configuration
                  management or access control problems also existed at many of the 24
                  sites evaluated. Problems with design and implementation of cyber
                  security policy, including a lack of monitoring and specific, focused
                  performance measures, contributed to these weaknesses and adversely
                  impacted the effectiveness of the entity-wide program. Observed
                  weaknesses increased the risk that critical systems, a number of which
                  enable delivery of essential services to members of the public and other
                  Federal agencies, could be compromised or disabled by malicious or
                  unauthorized users.

                  Due to security considerations, information on specific vulnerabilities
                  and locations has been omitted from this report. Line management
                  officials at the sites evaluated have been provided with detailed
                  information regarding identified vulnerabilities, and in some instances,
                  have initiated corrective actions for critical problems.

                  Taken as a whole, we consider the issues described in this report to
                  constitute a material weakness in the Department's unclassified cyber
                  security program. Management should consider the issues discussed in
                  this report when preparing the yearend assurance memorandum on
                  internal controls.




                                                               Signed
                                                        Office of Inspector General




Page 2                                                   Conclusions and Observations
UNCLASSIFIED CYBER SECURITY PROGRAM DESIGN AND
IMPLEMENTATION WEAKNESSES

Inadequate Protection   While the Department has made improvements in its unclassified cyber
of Systems and Data     security program, the program did not adequately protect data and
                        information systems as required by GISRA. During our evaluation we
                        observed problems with security program planning and management, to
                        include problems with risk management, contingency planning,
                        computer incident reporting, and training management. Configuration
                        management or access control problems also existed at many of the 24
                        sites evaluated.

                        Security Program Planning and Management

                        Security program planning and management weaknesses impaired the
                        ability of the Department to protect its critical unclassified information
                        systems. For example, a life cycle approach to identifying cyber
                        security-related risks and vulnerabilities had not been implemented for
                        many of the networks and mission critical systems evaluated.
                        Contingency plans for recovering from security-related system failures
                        had not been developed, were outdated, were missing critical elements,
                        or had never been tested for viability. The Department also lacked
                        sufficient information to manage its network intrusion threat because of
                        problems with incomplete or untimely reporting of cyber security
                        incidents. Moreover, management weaknesses made it difficult for the
                        Department to measure the overall effectiveness of its cyber security
                        training program and ensure that key personnel received necessary
                        training.

                                                   Risk Management

                        Despite Office of Management and Budget (OMB) requirements, a life
                        cycle approach to identifying cyber security-related risks and
                        vulnerabilities had not been implemented for many of the networks and
                        mission critical systems evaluated. While each of the Department's
                        programs and sites had prepared high-level Cyber Security Program
                        Plans as required by DOE Notice 205.1, the plans we evaluated
                        generally concentrated on network assets and were either not supported
                        by risk assessments or addressed risk only in a generic manner. At the
                        network and individual system level, security plans had either not been
                        prepared or were inadequate for most of the systems evaluated. System
                        specific security plans that analyzed risks and security vulnerabilities
                        such as those associated with insider threats had only been developed
                        for about half of the mission critical systems evaluated. Without such
                        plans, supported by individual risk assessments that consider threats
                        and provide sound mitigation strategies, management lacks an
                        important tool necessary for protecting its critical systems.

Page 3                                                                        Details of Finding
         We also noted that the Department had not identified all critical
         information technology assets, an essential step in implementing an
         effective risk-based, cyber security program. As noted in our recent
         report The Department of Energy's Implementation of the Clinger-
         Cohen Act of 1996 (DOE/IG-0507, June 2001), the Department had not
         developed an information systems baseline that included an inventory
         of applications and major systems in use or under development.
         Although the Department has started a process to identify, prioritize,
         and protect its critical assets, the effort remained incomplete. Our
         report on Implementation of Presidential Decision Directive 63,
         Critical Infrastructure Protection (DOE/IG-0483, September 2000),
         demonstrated that the Department had been slow to identify its critical
         assets and to prioritize subsequent protection measures. In addition,
         many organizations evaluated indicated that they had not been provided
         with specific guidance on implementing GISRA and as a consequence
         had not developed a consistent method of prioritizing system
         importance. At least one major site we visited maintained that it had no
         mission critical systems.

                                  Contingency Planning

         Many organizations also had not developed procedures to permit them
         to recover quickly from a disruption of critical services caused by a
         cyber security incident. For many of the systems evaluated,
         contingency plans had not been developed, were outdated, were missing
         critical elements, or had never been tested for viability. Without
         adequate contingency plans, it would be difficult for the Department to
         quickly restore critical information systems and resume delivery of
         essential services in the event of a malicious or destructive intrusion.

                              Computer Incident Reporting

         Incomplete reporting of cyber security incidents by sites and program
         elements limited the effectiveness of the Department's incident response
         capability. As noted in our recent report on Virus Protection Strategies
         and Cyber Security Incident Reporting (DOE/IG-0500, April 2001),
         Departmental elements underreported incidents such as intrusions,
         scans and probes, and viruses and worms. Less than 50 percent of sites
         with reporting responsibilities consistently reported such incidents. Of
         those reporting, only 5 of 108 sites reported all significant cyber
         security incidents. Without complete and timely reporting, the
         Department is unable to accumulate sufficient information necessary to
         manage its intrusion threat and risks compromising evidence of
         computer crimes.

Page 4                                                      Details of Finding
         Incomplete reporting may also adversely affect other Federal entities
         that rely on data the Department supplies to external organizations such
         as the Federal Computer Incident Response Capability and National
         Infrastructure Protection Center. The Department is in the process of
         developing policy guidance designed to mitigate problems with incident
         reporting.

                                  Training Management

         Security training program management weaknesses made it difficult for
         the Department to measure the overall effectiveness of the program and
         ensure that key cyber security-related personnel received necessary
         training. While the Associate Chief Information Officer (CIO) for
         Cyber Security had developed and implemented a large-scale, centrally
         funded training program, no means had been devised to monitor
         whether organizations were meeting training requirements. For
         example, Headquarters program officials were unable to determine the
         number and duties of those attending training, the type of training
         received, and the overall cost of administering the training program.
         The current structure also does not permit the CIO to monitor training
         for overall sufficiency and to detect significant implementation issues.
         Notably, the CIO was not advised that at least one organization, with a
         number of geographically dispersed locations and highly sensitive
         systems supporting national critical infrastructures, failed to provide
         cyber security awareness training for at least the last two fiscal years.
         Without a means of monitoring its training program, the Department
         cannot gain assurance that its approximately 117,000 employees,
         consisting of 16,000 Federal employees and 101,000 prime contractor
         employees located at numerous sites across the complex, are equipped
         with the skills necessary to protect critical systems.

         Configuration Management

         Configuration management weaknesses presented an opportunity for
         malicious or unauthorized access to networks and systems and
         increased the potential for unauthorized changes to software and data at
         many of the sites evaluated. We observed unnecessary access to certain
         powerful computer services and firewall configuration problems. The
         evaluation also revealed that a number of systems had outdated versions
         of software with known security vulnerabilities installed, organizations
         that lacked or did not enforce software change control procedures, and
         undocumented software changes to certain critical networks and
         systems.


Page 5                                                       Details of Finding
         Weak or excessively permissive configurations and access to
         unnecessary services rendered a number of the Department's networks
         and systems vulnerable to attack. For instance, a number of networks
         maintained certain services involving file sharing and transfer that were
         unneeded by systems users. Hackers frequently exploit known
         vulnerabilities in such services to gain unauthorized access to networks.
         Unnecessary services that permitted remote access or administrator-
         type privileges were also not properly restricted or were not required for
         operation of certain systems. Improper implementation of one
         organization's firewall enabled us to gain access to and simulate the
         compromise of a sensitive system server that managed data encryption
         certificates. Certain sites also had numerous unsecured open ports on
         firewalls, a practice that could potentially allow unauthorized access to
         network resources. The problems with weak configurations were
         exacerbated by the fact that three major sites had not implemented an
         intrusion detection system to detect attacks.

         Despite frequent warnings and advisory bulletins by the Department's
         Computer Incident Advisory Center, a number of organizations were
         not properly maintaining systems and application software.
         Specifically, sites did not update certain critical system software and
         continued to use web hosting and other software with known
         vulnerabilities. Organizations also lacked documented procedures for
         software change controls and had allowed or failed to detect
         unapproved software changes. Management authorizations, a key
         control for guarding against unauthorized software changes, were not
         maintained at some locations and not required at others. In addition,
         segregation of incompatible duties was not enforced and programmers
         had the ability to make unauthorized changes to systems software at
         two sites. Mitigating controls to prevent or detect improper changes to
         systems software, such as periodic supervisory review or follow up,
         were also not enforced at some sites. Lack of attention in these areas
         exposed critical resources to damage or unauthorized alteration by both
         internal and external sources.

         Access Controls

         Problems with controls related to the use and administration of
         passwords increased the risk of unauthorized access to networks at a
         number of sites. In spite of Departmental policy requiring the use of
         strong passwords, we found that certain organizations permitted
         passwords consisting of commonly used dictionary words or names.
         One Department-wide system permitted passwords that contained as



Page 6                                                        Details of Finding
                        few as four characters. In another instance, nine users were allowed to
                        access network resources without passwords. Some individuals were
                        not required to change their passwords periodically, and other users
                        could make unlimited attempts to log on to the network without having
                        their account permanently disabled. During our testing we were able to
                        guess simple or default passwords and gain administrator-level access
                        to critical network services. Network scanning at another site disclosed
                        that a number of users had improperly enabled password caching, a
                        practice that permitted access to the organization's network simply by
                        powering on the desktop computer.

                        Certain sites were also not actively enforcing or had not developed
                        controls to restrict logical and physical access to systems and computer
                        facilities. For certain mission critical systems, requests for access
                        authorization had not been approved by management or did not exist.
                        In addition, several sites had not developed procedures for removing
                        terminated employees or for disabling inactive accounts and were not
                        actively managing system access. For example, we found a number of
                        instances of terminated employees with active network or application-
                        level accounts. Certain users maintained access privileges for a
                        particular system despite the fact that they had not accessed it for
                        periods of up to 500 days. At one site, over 700 individuals had
                        physical access to a computing facility that hosted systems used to
                        provide critical services to a large segment of the country, this despite
                        the fact that the entire workforce for the facility amounted to only about
                        350 people. A lack of physical access controls at several locations
                        permitted us to gain access to network resources through active network
                        connections maintained in unsecured conference and meeting rooms.


                        GISRA requires that each agency develop and implement an agency-
GISRA Requires the
                        wide cyber security program, consisting of policies, procedures, and
Protection of
                        control techniques, sufficient to protect information systems supporting
Information Resources
                        agency operations and assets. GISRA focuses on program
                        management, implementation, and evaluation aspects of the security of
                        unclassified and national security information. Generally, GISRA
                        codifies existing policies and regulations and reiterates security
                        responsibilities outlined in the Computer Security Act of 1987 and the
                        Clinger-Cohen Act of 1996. It requires agencies to adopt a risk-based,
                        life cycle approach to improving computer security and also requires
                        annual agency program reviews and independent evaluations of both
                        unclassified and classified computer security programs. Specifically,
                        GISRA requires:


Page 7                                                                       Details of Finding
                               • Periodic risk assessments that consider internal and external
                                 threats to the integrity, confidentiality, and availability of systems
                                 and data;
                               • Policies and procedures that are based on risk assessments that
                                 cost-effectively reduce information security risk to an acceptable
                                 level;
                               • Adequate training of staff responsible for cyber security;
                               • Cyber security awareness training for agency personnel;
                               • Periodic management testing and evaluation of the effectiveness
                                 of the program;
                               • A process for ensuring remedial action to address significant
                                 deficiencies; and
                               • Procedures for detecting, reporting, and responding to cyber
                                 security incidents.


Weaknesses In               Despite the Department's increased efforts to improve cyber security
Cyber Security Program      throughout the complex, its program continues to suffer from problems
Design and Implementation   with program design and implementation. The Department had not
                            effectively monitored implementation of its cyber security program;
                            had not developed and implemented a structured, consistent
                            programmatic performance assessment model; and lacked specific,
                            focused performance measures. These problems directly contributed to
                            the vulnerabilities observed during our evaluation and increased the risk
                            of damage or unauthorized use for many of the Department's mission
                            critical systems.

                            Measuring Effectiveness of the Cyber Security Program

                            As noted in our recent report The Department of Energy's
                            Implementation of the Clinger-Cohen Act of 1996 (DOE/IG-0507,
                            June 2001), the CIO lacks the authority necessary to ensure that cyber
                            security policy implementation is consistent across the complex and is
                            designed to satisfy corporate objectives. While the CIO is charged with
                            the development of all cyber security policy, that Office lacks the tools
                            to successfully monitor or measure implementation efforts. For
                            example, the CIO's Cyber Security Office is not currently staffed to
                            permit it to "evaluate the effectiveness of the agency information
                            security program, including testing control techniques" as required by
                            GISRA. While the CIO appropriately relies on the Office of
                            Independent Oversight and Performance Assurance (OA) to satisfy the
                            testing responsibilities imposed by GISRA, it is not actively engaged in
                            monitoring programmatic assessment activities. For example, the CIO
                            does not review interim or periodic programmatic level assessment
                            results to determine whether implementation efforts are on track.

Page 8                                                                          Details of Finding
         Although a number of organizations within the Department were
         performing assessments, these activities were not based on a structured
         model and were generally limited in coverage or scope. Programmatic
         assessment activities at the site or system level were primarily confined
         to self-assessments, the effectiveness of which varied greatly. Because
         the Department had not developed a specific template for conducting
         such activities, the assessments tended to vary greatly in their scope and
         the areas of cyber security reviewed. For example, although a
         widespread problem, the assessments often did not address system
         specific risk assessments. The Department also did not move to
         implement the structured assessment methodology developed by the
         CIO Council and National Institute of Standards and Technology even
         though GISRA and OMB implementing guidance specifically
         suggested such action.

         Performance Measures

         The Department currently lacks specific, focused performance
         measures for monitoring or gauging the overall effectiveness of its
         unclassified cyber security program. At present, program elements
         responsible for implementing the program are not specifically required
         by Departmental policy to establish cyber security-related goals and to
         track or report progress in satisfying program requirements. At the time
         of our evaluation, the CIO was in the process of developing a Cyber
         Security Metrics Program to satisfy the requirements of the
         Government Performance and Results Act of 1993 (GPRA).

         While data collected in the initial year was to be used only for GISRA
         reporting purposes, the Department envisions that program officials will
         eventually utilize the metrics program to monitor program performance.
         The metrics were designed in cooperation with representatives of each
         of the Department's Lead Program Secretarial Officers, and were meant
         to measure key aspects of implementation and provide feedback on the
         performance of the various security programs. After an initial baseline
         is developed, the CIO plans to design specific performance goals. If
         implemented, these measurement efforts, along with structured,
         programmatic reviews, should assist the CIO in evaluating the
         Department's implementation of cyber security policies.




Page 9                                                        Details of Finding
Increasing Cyber      As the Department continues to establish web-based systems and
Security Threats      increase network interconnections, the threat of compromise of its
                      critical information resources increases. Attempted cyber security
                      incidents increased by 469 percent from 1,335 in FY 1998 to over 7,500
                      in FY 2000. While implementation of protection strategies permitted
                      the Department to repel a number of potential intrusions in FY 2000,
                      continued vigilance is necessary. Successful intrusions and system
                      defacements are a continuing problem, and the Office of Inspector
                      General's Technology Crimes Section is currently engaged in a number
                      of criminal investigations involving such activity. Observed
                      weaknesses increased the risk that critical systems, a number of which
                      enable delivery of essential services to members of the public and other
                      Federal agencies, could be compromised or disabled by malicious or
                      unauthorized users.


Improvements in the   To its credit, the Department has taken a number of actions designed to
Cyber Security        strengthen its cyber security program and to protect unclassified
Program               computer and network security across the complex. In 1999, the
                      Department established a single, Department-wide Cyber Security
                      Office within the Office of the CIO responsible for developing cyber
                      security policy. The Office of Independent Oversight and Performance
                      Assurance was also established to provide independent oversight of the
                      implementation of cyber security policies. This office conducts
                      comprehensive cyber security assessments that include network
                      vulnerability and penetration testing and programmatic evaluations. In
                      addition, work stand-downs were required at all sites to conduct
                      security awareness training. In July 1999, the Department published
                      DOE Notice 205.1, "Unclassified Computer Security Program" to
                      establish overall policy for the protection of cyber-related assets.
                      Furthermore, several sites we evaluated had proactive network testing
                      and monitoring programs that significantly strengthened network
                      security. While the program has matured, additional work is necessary
                      to ensure that information technology resources are adequately
                      protected.




Page 10                                                                   Details of Finding
RECOMMENDATIONS       To improve cyber security within the Department, we recommend that
                      the Deputy Secretary of Energy:

                      1. Provide the CIO with the authority necessary to monitor and
                         evaluate the effectiveness of the Department's cyber security
                         program;
                      2. Require the CIO to design and monitor the implementation of a
                         structured, program-level cyber security assessment program based
                         on the CIO Council Framework and NIST guidance documents;
                      3. Require each of the line organizations evaluated to design and
                         implement a plan for correcting the cyber security weaknesses
                         identified in this report. The plan should specifically address the
                         requirement to prepare risk assessments;
                      4. Finalize Departmental cyber security incident reporting
                         requirements; and,
                      5. Ensure that the CIO, in conjunction with the Lead Program
                         Secretarial Officers, complete efforts to establish specific,
                         quantifiable cyber security performance measures and incorporate
                         them into the Department's Annual Performance Plan.


MANAGEMENT REACTION   Management concurred in principle with our finding and
                      recommendations and indicated that it would develop a plan to correct
                      security weaknesses identified by the evaluation.


AUDITOR COMMENTS      Management's comments are responsive to our recommendations.
                      Management's action plan should describe specific actions to be taken
                      and milestones for correcting the security weaknesses identified in our
                      evaluation.




Page 11                                                Recommendations and Comments
APPENDIX 1

SCOPE         This evaluation work was performed between February and August
              2001. We performed a vulnerability assessment of Departmental
              computing network operations. Specifically, we assessed the
              automated system controls of network operations to determine the
              effectiveness of access controls related to safeguarding information
              resources from unauthorized internal and external sources. The
              evaluation included a limited review of general and application controls
              in areas such as entity-wide security planning and management, access
              controls, application software development and change controls, and
              service continuity. Our work did not include a determination of
              whether vulnerabilities found were actually exploited and used to
              circumvent existing controls.


METHODOLOGY   To meet the requirements of GISRA, we conducted an independent
              evaluation of the Department's unclassified cyber security program.
              The evaluation included an extensive analysis of the Department's
              overall cyber security program management, policies, procedures, and
              practices. Headquarters offices and field sites were evaluated in
              conjunction with the annual financial statements audit, expanding on
              the work performed by KPMG LLP, the Office of Inspector General's
              (OIG) contract auditor. The evaluation included analysis and testing of
              general and application controls for systems as well as vulnerability and
              penetration testing of networks. In addition, the evaluation included an
              analysis of other recent cyber security evaluations performed by the
              OIG. To accomplish our objectives, we reviewed applicable laws and
              directives pertaining to cyber security and information technology
              resources, such as GISRA, OMB Circular A-130 (Appendix III), and
              DOE Notice 205.1. We obtained an understanding of controls
              surrounding network and computing operations, such as
              communications services and operating systems, through inquiry,
              observation, and document inspection.

              To minimize duplication of effort and as required by implementing
              guidance published by the OMB (M-01-08 of January 16, 2001), we
              have directly incorporated the results of studies and evaluations
              performed by organizations such as the GAO and the Department's OA
              in our report of evaluation. As required by generally accepted
              Government auditing standards, we have taken steps and performed
              confirmatory procedures sufficient to satisfy ourselves as to the
              relevance and competence of such evidence.




Page 12                                                    Scope and Methodology
          We evaluated the Department's implementation of GPRA related to the
          establishment of performance measures for unclassified cyber security.

          We did not rely solely on computer-processed data to satisfy our
          objectives. However, we used a number of computer-assisted audit
          tools to perform probes of various networks and devices. We validated
          the results of our scans by confirming the weaknesses disclosed with
          responsible on-site personnel and performed other procedures to satisfy
          ourselves as to the reliability and competence of the data produced by
          our tests.

          The evaluation was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the objectives.

          Because our evaluation was limited, it would not have necessarily
          disclosed all internal control deficiencies that may have existed. Also,
          projection of any evaluation of the control structure to future periods is
          subject to the risk that procedures may become inadequate because of
          changes in conditions or that the degree of compliance with policies or
          procedures may deteriorate. Management waived a formal exit
          conference.




Page 13                                                             Methodology
APPENDIX 2



                       RELATED OFFICE OF INSPECTOR GENERAL
                    AND U.S. GENERAL ACCOUNTING OFFICE REPORTS



      •   Integrated Planning, Accountability, and Budgeting System-Information System
          (DOE/IG-0509, June 2001). The Integrated Planning, Accountability, and Budgeting
          System-Information System (IPABS-IS) was not integrated into the Department's
          Corporate Systems Information Architecture. As a consequence, there were project
          management and security weaknesses in the development and operation of IPABS-IS that
          impacted its ability to satisfy Department goals and meet users' information needs.

      •   The Department of Energy's Implementation of the Clinger-Cohen Act of 1996,
          (DOE/IG-0507, June 2001). While the Department had taken action to address certain IT
          related management problems, it has not been completely successful in implementing the
          requirements of the Clinger-Cohen Act of 1996. We attributed the problems identified, in
          part, to the Department's decentralized approach to information technology management
          and oversight and the organizational placement of the CIO.

      •   Virus Protection Strategies and Cyber Security Incident Reporting, (DOE/IG-0500,
           April 2001). The Department's virus protection strategies and cyber security incident
          reporting methods did not adequately protect systems from damage by viruses and did not
          provide sufficient information needed to manage its network intrusion threat. These
          problems existed because the Department had not developed and implemented an effective
          enterprise-wide strategy for virus protection and cyber security incident reporting.

      •   Fiscal Year 2000 Consolidated Financial Statements, (DOE/IG-FS-01-01, February 2001).
          The report identified three reportable weaknesses in the Department's system of internal
          controls pertaining to performance measures, financial management, and unclassified
          information system security. Specifically, performance goals, in many cases, were not
          output or outcome oriented and/or were not meaningful, relevant, or stated in objective or
          quantifiable terms. The Department also had certain network vulnerabilities and general
          access control weaknesses.

      •   Internet Privacy, (DOE/IG-0493, February 2001). The Department's method of collecting
          data from users of its publicly accessible web sites was not always consistent with Federal
          regulations. Specifically, some web sites were collecting data by unapproved or
          undisclosed means and a number of web sites did not display conspicuously located,
          clearly written privacy notices.



Page 14                                                           Related Office of Inspector General
                                                                    and General Accounting Reports
          •   Implementation of Presidential Decision Directive 63, Critical Infrastructure
              Protection, (DOE/IG-0483, September 2000). While external energy sector
              infrastructure protection activities were progressing and a number of internal and
              collateral actions had been completed, the Department had not implemented its critical
              infrastructure protection plan to mitigate significant vulnerabilities, or assure the
              continuity and viability of its critical infrastructures.

          •   Unclassified Computer Network Security at Selected Field Sites, (DOE/IG-0459,
              February 2000). Departmental sites audited had significant internal or external
              weaknesses that increased the risk that their unclassified computer networks could be
              damaged by malicious attack. Each site evaluated had network vulnerabilities involving
              poor password management, unnecessary access to certain powerful computer services,
              weak configuration management, outdated software with known security problems, and/
              or problems with firewall configuration.

          •   Major Management Challenges and Program Risks: Department of Energy, (GAO-01-
              246, January 2001). This report, part of GAO's high-risk series, discusses the major
              management challenges and program risks facing the Department of Energy. GAO
              found, among other things, security weaknesses in public Internet access to sensitive
              information on the Department's networks and in computer security at the Department's
              science laboratories.

          •   Serious and Widespread Weaknesses Persist at Federal Agencies, (GAO/AIMD-00-295,
              September 2000). GAO noted that a major contributing factor to the existence of the
              Department’s security vulnerabilities was ineffective and inconsistent information
              technology security management throughout the Department. GAO found that, among
              other things, the Department had not prepared federally required security plans,
              effectively identified and assessed information security risks, or fully and consistently
              reported security incidents.

          •   Information Security: Software Change Controls at the Department of Energy, (GAO/
              AIMD-00-189R, June 2000). GAO reviewed software change controls at the
              Department focusing on, among other things, whether key controls as described in
              agency policies and procedures regarding software change authorization, testing, and
              approval complied with Federal guidance. They reported that Department-wide
              guidance and formal procedures were inadequate and several components reviewed had
              no formally documented process for routine software change control.

          •   Vulnerabilities in DOE's Systems for Unclassified Civilian Research, (GAO/AIMD-00-
              140, June 2000). Unclassified scientific research information systems were not
              consistently protected at all Department laboratories. Although some laboratories were
              taking significant steps to strengthen access controls, many systems remained
              vulnerable. A major contributing factor to the continuing security shortfalls at these
              laboratories was that the Department lacked an effective program for consistently
              managing information technology security throughout the agency.

Page 15                                                              Related Office of Inspector General
                                                                       and General Accounting Reports
APPENDIX 3


    OFFICE OF INDEPENDENT OVERSIGHT AND PERFORMANCE ASSURANCE (OA)
                REPORTS INCORPORATED INTO OUR EVALUATION




    •     External Network Security Assessment of the Fernald Environmental Management Project
          (February 2001)

    •     Cyber Security Review of the Savannah River Site (March 2001)

    •     Cyber Security Review of the Argonne National Laboratory-East (April 2001)

    •     Cyber Security Review of the Lawrence Livermore National Laboratory (April 2001)




Page 16                                                          Office of Independent Oversight and
                                                                 Performance Assurance Reports
                                                                               IG Report No. :DOE/IG-0519

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
